<html>
<title> - PAKISTANI ELECTIONS: WILL THEY BE FREE AND FAIR OR FUNDAMENTALLY FLAWED (PART II)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
PAKISTANI ELECTIONS: WILL THEY BE FREE AND FAIR OR FUNDAMENTALLY FLAWED 
                               (PART II)

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 29, 2008

                               __________

                           Serial No. 110-175

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
50-227                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 29, 2008.................................     1
Statement of:
    Boucher, Richard A., Assistant Secretary, Bureau of South and 
      Central Asian Affairs, U.S. Department of State............    11
Letters, statements, etc., submitted for the record by:
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     9
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     5


PAKISTANI ELECTIONS: WILL THEY BE FREE AND FAIR OR FUNDAMENTALLY FLAWED 
                               (PART II)

                              ----------                              


                       TUESDAY, JANUARY 29, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:05 a.m., in 
room 2247, Rayburn House Office Building, Hon. John J. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Shays, Lynch, Yarmuth, 
McCollum, Welch, and Platts.
    Also present: Representative Issa.
    Staff present: Dave Turk, staff director; Andrew Su and 
Andy Wright, professional staff members; Davis Hake, clerk; Dan 
Hamilton, fellow; A. Brooke Bennett, minority counsel; Janice 
Spector and Christopher Bright, minority professional staff 
members; Todd Greenwood, minority legislative assistant; 
Benjamin Chance, minority clerk; and Jeanne Neal, minority 
intern.
    Mr. Tierney. Good morning and thank you all for coming.
    I want to particularly thank our witness for being here 
this morning. He is on quite a busy schedule and came in on 
short notice because we have been trying to have this hearing 
for a couple of weeks. The Ambassador has been traveling and 
doing a lot of work.
    He is also scheduled to testify at 1 p.m., in front of the 
Intelligence Committee. That will be a closed hearing from my 
experience with that group. I think it is important that we 
have an open hearing so that the Ambassador gets to share with 
us what is going on from his perspective and the 
administration's perspective.
    And so, we are continuing our oversight on the national 
security interests at stake in Pakistan, particularly with 
respect to the elections for February 18th.
    The 9/11 Commission and our own intelligence agencies have 
repeatedly stressed the central importance of Pakistan in 
efforts to root out terrorism. A growing chorus of others have 
joined them, also raising serious concerns about how we are 
doing in that struggle. Most striking, I think, was last 
summer's National Intelligence Estimate of a resurgent Al Qaeda 
in Pakistan safe havens.
    Over the past year, our subcommittee has had vigorous 
oversight. Two congressional delegations have gone to Pakistan. 
We have had at least three previous hearings on the issue, one 
of which the Ambassador was present at.
    The central lesson, at least that I have taken, is that if 
we really care about preventing another situation like 9/11, if 
we care about bringing Osama bin Laden to justice, if we care 
about protecting our soldiers in Afghanistan from the 
escalating cross-border attacks, then we absolutely have a 
crucial interest in ensuring that the government in Pakistan 
has the popular mandate to confront extremism and terrorism 
within its borders.
    We have heard over and over again about the importance of 
the United States speaking with a clear and unambiguous voice 
about the need for the upcoming elections to establish the 
legitimacy of a Pakistani government in order to instill 
confidence in the Pakistani people that their will is reflected 
in the election results.
    At times, Ambassador, you and others in the administration 
have voiced the same sentiments. For example, on early July 12, 
2007 at a hearing, you testified: ``We believe that Pakistan 
must make a full transition to democracy and civilian rule.''
    But at other times, our country's message seems to have 
been mixed and muddled. Deputy Secretary Negraponte and other 
officials have called President Musharraf, ``indispensable,'' 
and you referred to the suspension of the Pakistani 
constitution as a ``bump in the road.''
    Many more times our lack of words or lack of actions, for 
example, with respect to President Musharraf's purging of 
judges from the Pakistani courts, speak volumes especially to 
the Pakistani people.
    All the while, the essential goal of free and fair 
elections in Pakistan seems to be slipping from our grasp. Just 
last month on December 20th, we heard from a distinguished 
panel of election observers from across the political spectrum 
who concluded unambiguously that preelection preparations 
offered little hope to the Pakistani people that their voices 
will be heard in a free, fair and transparent election.
    Former Senate Majority Leader Tom Daschle, who had recently 
returned from an election assessment trip to Pakistan, 
concluded that free, fair and transparent elections would be 
impossible without significant, sincere and immediate 
corrective action on the part of the Government of Pakistan. He 
noted: ``Without the restoration of Chief Justice Iftikhar 
Chaudhry and the other deposed justices, public confidence in 
the ability of the judicial system to act independently and 
ensure the transparency of the electoral process will be 
significantly curtailed.''
    Tom Garrett from the International Republican Institute 
testified that the Government of Pakistan, invoking security 
concerns, had limited polling place access for international 
election monitors. Mr. Garrett also spoke about IRI's recent 
poll showing a plummeting of support for President Musharraf.
    Former Peace Corps Director Mark Schneider expressed the 
view of the International Crisis Group by emphasizing the 
central role the judiciary plays in the integrity of the 
Pakistan electoral process. He noted: ``The U.S., and its 
Western allies, must recognize that free and fair elections are 
the best option for a secular and moderate parliamentary 
majority, a unified country against extremist jihadi 
organizations, the Taliban and Al Qaeda.''
    The testimony of those three individuals emphasize the 
widespread atmosphere of insecurity and intimidation that 
strike at the heart of any credible democratic process. The 
voters' rolls fail to inspire confidence and raise the specter 
of massive disenfranchisement.
    The media continues to operate under a code of conduct that 
criminalizes criticism of President Musharraf's government. 
Many of Pakistan's leading judges and lawyers remain silenced, 
if not imprisoned.
    Opposition parties struggle to make their case under 
restrictions on political expression and campaigning. Leading 
opposition figures remain disqualified.
    There is a fear that Pakistan's fearsome intelligence and 
security services may again play an insipid role in rigging and 
intimidation, and international election observers face 
disabling barriers to polling place access.
    As bleak as these assessments were, the electoral 
environment in Pakistan has unfortunately deteriorated since 
our December 20th hearing. On December 27th, former Prime 
Minister Benazir Bhutto was assassinated in Rawalpindi. Her 
assassination was a blow to supporters of democracy and 
opponents of violent extremism everywhere.
    Former Prime Minister Nawaz Sharif, in light of the 
widespread Pakistani view of U.S. complicity with what they 
believe is a dictatorial government, sees electoral strength in 
bashing the United States.
    The militancy and terrorism, once largely confined to the 
Federally Administered Tribal Areas, has spilled into the 
streets of the provincial capital, Peshawar, and elsewhere. The 
elections were delayed until February 18th and rumors abound 
among some that President Musharraf is looking for a way to 
postpone those elections, perhaps indefinitely.
    Yet, despite the essential need of a legitimate and 
impartial judiciary in the electoral process, this 
administration, the Bush administration, appears willing to 
concede a dismantled judiciary to President Musharraf.
    Despite signs that the vaunted Pakistani military 
establishment is distancing itself from President Musharraf, 
this administration appears wiling to continue in expressing 
steadfast support for President Musharraf.
    Despite evidence that President Musharraf's cling to power 
represents a distraction to our counterterrorism efforts, we 
continue to pursue policies described by Pakistanis as 
``Busharraf.''
    Over the past summer, when you testified earlier before us, 
Ambassador, I noted, ``It is often said that Pakistan is a 
place of breathtaking complexity. It is in part because of this 
that our long-term national security interests are best served 
by forging bonds with the Pakistani people and not with any one 
particular leader.''
    That is what our hearing is about today. I look forward to 
hearing your comments.
    I note that we have waived any introductory statement in 
writing or otherwise by you, Ambassador, so we can get to 
questions and answers because of your pressing schedule and 
other obligations today.
    Mr. Shays, do you want to make any opening statement?
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T0227.001
    
    [GRAPHIC] [TIFF OMITTED] T0227.002
    
    [GRAPHIC] [TIFF OMITTED] T0227.003
    
    Mr. Shays. Thank you, Mr. Chairman.
    First, let me say I appreciate the Ambassador here. In 
deference to your time schedule, I am going to waive my written 
statement and just say that your statement captures much of 
what I feel.
    I am particularly concerned about judicial interference and 
the dismantling of the judiciary. I am concerned about election 
day monitoring and the position that the government may take 
against International Republican Institute in its efforts to 
monitor.
    I am concerned that we not make the error that we made in 
Iran with deciding that because we didn't like the Shah, we 
would just throw our support to Khomeini and we ended up with 
that. So we are treading on thin ice, and we need to act 
intelligently.
    Frankly, I don't know what action is required. That is why 
I appreciate this hearing.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T0227.004
    
    [GRAPHIC] [TIFF OMITTED] T0227.005
    
    Mr. Tierney. Thank you. Mr. Shays.
    We are going to move to testimony and questions.
    My introduction is of Ambassador Richard A. Boucher who is 
the Assistant Secretary of State for the Bureau of South and 
Central Asian Affairs for the U.S. Department of State.
    Welcome, Ambassador. We swear in our witnesses, as you 
know, on this subcommittee.
    [Witness sworn.]
    Mr. Tierney. Thank you very much. The record will reflect 
that the answer was in the affirmative.
    We have waived your written testimony. You may want to make 
a few opening comments. If you do, Ambassador, we would 
certainly like to hear them.
    Mr. Boucher. If I could, sir, I would like to.
    Mr. Tierney. Certainly.

STATEMENT OF RICHARD A. BOUCHER, ASSISTANT SECRETARY, BUREAU OF 
   SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Boucher. Thank you very much for having me here today.
    To all of us, the elections in Pakistan are very, very 
important, and the success of Pakistan as a nation, as a 
moderate, modern, prosperous nation, able to fight extremism is 
one of our vital national interests.
    I appreciate. Let me say right off the top, I appreciate 
the fact that you have traveled there. Mr. Lynch and others, 
members of the committee have traveled out there to look at our 
operations and look at the situation firsthand but also to 
pursue many of these issues and the emphasis that we, as 
Americans, that all of us place on a democratic transition in 
Pakistan.
    We have certainly seen a lot of turmoil in Pakistan in the 
last, well, the last year, the last 9 months especially: 
emergency rule in November-December, suspension of the 
constitution, restrictions on freedom of assembly, freedom of 
speech, and then the very tragic and sad assassination of 
Benazir Bhutto which took one of the major leaders of Pakistan 
from the nation.
    We have seen increased militancy in the North-West Frontier 
and more and more clashes between the army and the militants up 
in the tribal areas. Violent extremists have declared war on 
Pakistan's democratic process, and I think the assassination of 
Ms. Bhutto is a sign of that. They continue to target 
politicians and the political process as we move forward into 
the elections and probably afterwards.
    Despite the unrest, I think our fundamental goals in terms 
of what we're trying to achieve with Pakistan remain unchanged. 
We want to see a successful transition to democracy and 
civilian rule. We want to see the emergence of leaders through 
a credible election. We want to see a strong moderate center 
that can complete this transition and help form a solid basis 
for pursuing the fight against extremism and the building of 
strong democratic institutions including an independent 
judiciary in Pakistan.
    Our assistant programs focus on these areas in a 
fundamental and long term way. We are spending over $125 
million this year on education. We promote health programs that 
serve the people of Pakistan. We have had a lot of programs 
that promote economic growth as well as security and counter-
narcotics.
    We have had about $100 million over the last few years that 
has been spent on democracy programs including $25 million or 
so that was spent directly on elections.
    So it is a very important balance in our efforts. It is an 
important balance that maintains a whole breadth of interests 
in the Pakistani people and in trying to help them achieve the 
kind of nation and society that they aspire to.
    We have seen some positive trends in Pakistan over the 
years and even in recent times. The civil society and the media 
are strong, although they have taken some hits.
    The army is taking on the militant extremists, and they 
have conducted operations in the Swat Valley and are now 
conducting operations in Waziristan against extremist elements.
    All the major political parties, while they are criticizing 
the election process, have made the judgment it is better to be 
in than out, and they are going to participate in the 
elections. Obviously, their view of how the elections turn out 
will be one of the very important factors that we use as we see 
after the election, from the parties, from the observers, from 
the media, how it was conducted and whether we think it meets 
the standards that we are all looking for, and that is an 
election that can reflect the true wishes of the Pakistani 
people and the Pakistani voters.
    We are doing everything we can to try to ensure as fair an 
election as possible. We have supported efforts for a long time 
now, as I said, with the money we spent over the last 2 or 3 
years, but we are also supporting things on election day like 
fielding observers, strong election observer missions. We are 
supporting the Asia Foundation's work in fielding something 
like 20,000 domestic observers in Pakistan.
    We have organized embassy teams from the embassy and the 
consulates in Islamabad and the other cities of Pakistan. About 
30 teams will be sent out by the U.S. mission in Pakistan to go 
look at key races around the country, and we are working very 
closely with the International Republican Institute to try to 
see if they can't send their people back and conduct the 
observation that they had planned. I think its leadership has 
yet to make the final decision on whether they are going to 
reengage.
    We have worked with the European Union on their observers 
who are out there and more to come. So we think that is an 
important element in trying to ensure that the election is as 
fair and free as possible because just the scrutiny encourages 
people to better behavior.
    We also have had a very active and ongoing dialog with the 
Pakistani Government and the Pakistani Election Commission 
about improving the election environment. Some of the steps we 
have been looking for have been taken, whether you go back to 
the need for transparent ballot boxes and 300,000 transparent 
ballot boxes that were purchased, other aspects of counting and 
tabulating the results that we have pressed very hard on, some 
of which have been done, many of which remain to be done.
    But they have reasonably taken some steps that we have 
encouraged. They have clarified guidelines for international 
observers, promising full access to all the polling stations 
and all the activities at the polling stations.
    They have printed and distributed electronic copies of the 
voter rolls. This was an issue that was very, very important to 
people.
    They have now published a list of polling stations in the 
official government newspaper, so everybody knows in advance 
where the polls are going to be. That, unfortunately, has been 
a problem in previous elections in Pakistan and was one of the 
things that early on the experts pointed out to us as being an 
issue, and that has been done.
    We are pushing very hard for transparency in counting so 
that they publish results at the lowest polling station level 
and put it on public display so that people like the Asia 
Foundation with their observers and the media can do 
independent tallies to make sure numbers don't get added along 
the way as the totals get made.
    We continue to work very hard to try to ensure an election 
that is as free and fair as possible, and we have been, I 
think, really working with a lot of people. Whether domestic 
and foreign, I think it is time for everybody to work as hard 
as they can to try to make this a good election, and that is 
where we are putting most of our energy right now.
    President Musharraf has made repeated and public promises 
that there will be a fair and transparent election, and we 
expect him to try to work to make sure that happens.
    Secretary Rice put it fairly succinctly the other day after 
she saw President Musharraf. She said, these elections need to 
be elections that will have the confidence of Pakistanis. That 
is the important point, and so we will look to Pakistanis on 
this issue.
    You raised the question of the judiciary. It is a difficult 
question in Pakistan. If you look back at the history of 
Pakistan, almost from the start, there have been direct and 
serious clashes between the executive and the judicial 
branches.
    I guess to say that they need and haven't had an 
independent and responsible judiciary that everybody accepts. 
We have made this point over and over.
    We have urged the Government of Pakistan to release the 
people who remain in detention--three attorneys, eight supreme 
court and three high court justices under house arrest--and we 
have urged that those people be released from detention. We 
have urged the political leaders and the other leaders in 
Pakistan to focus on the need for an independent judiciary.
    But, frankly, it had become a very political issue in 
Pakistan and I think it is fair to assume that they won't 
really address it seriously until after the election and that 
the new leaders, the political party leaders that emerge from 
the election as well as the other people in government are 
going to have to address this. We are obviously very prepared 
to bring whatever expertise, resources and support we can to 
that process, but I think we all understand how important it is 
for Pakistan to have an independent judiciary that the people 
can count on.
    We have also continued to encourage the government to 
release the remaining restrictions on the media. GEO TV is now 
back on the air, including their news channel that is one of 
the most popular in the country, but there are still 
restrictions and codes of conduct that apply to the media that 
we think should be looked at in order to help ensure a more 
free election.
    After the election, there will be a lot to do. The new 
players in Pakistan, the new people elected in the political 
parties will have to decide on the prime minister. The new 
prime minister will have to work with President Musharraf as 
president in a new role. The institutions of the society need 
to be looked at and some of them, like the judiciary, rebuilt.
    So it will be a very complicated process, but we look 
forward to supporting that process. We look forward to working 
with whomever emerges from a good election as prime minister, 
and we look forward to maintaining our very strong relationship 
with the Pakistani people.
    So, why don't I stop at that for the moment, and I would be 
glad to take your questions.
    Mr. Tierney. Thank you very much. You covered a lot of 
ground on that, and we appreciate it.
    Let me ask the first question, Ambassador. Is the United 
States going to be aggressive in its support for an independent 
U.S. investigation into the slaying of Benazir Bhutto?
    Mr. Boucher. We have been very aggressive in supporting the 
idea that there needs to be a thorough investigation and a good 
investigation of the slaying, of the killing of Benazir Bhutto. 
The Pakistanis have pledged to do that. They have brought in 
expertise from Scotland Yard, and our understanding is there is 
good cooperation there between Scotland Yard and the Pakistani 
investigators.
    Mr. Tierney. Allow me, if you will, to press that a little 
only because.
    Mr. Boucher. We have not gone farther than that.
    Mr. Tierney. Will you go further than that because I know 
there is great concern that the directive to Scotland Yard is 
not as broad as some might like it in terms of finding out who 
is responsible other than to find out how it might have 
happened?
    In order to put some confidence in this in the 
international community, isn't our administration taking the 
position that we should ask for a United Nations 
internationally run investigation so that we can all have 
confidence in that going forward?
    Mr. Boucher. We have not taken that position, sir. There is 
a lot of, I think, differences but differences between the 
other cases where U.N. investigations have been done. It is not 
a cure-all for any situation.
    I think we look to, first and foremost, to the local 
authorities to conduct any investigation. The addition of 
Scotland Yard, we think, provides an added measure of 
confidence, and we will all be watching that very, very closely 
and see how it turns out. If there are problems, I suppose we 
will deal with them at that point.
    Mr. Tierney. Well, let me, for one at least, weigh in, Mr. 
Ambassador. My position--I think I am joined by others--is this 
administration ought to take a forceful stand on that.
    It is not going to be in anybody's interest to have an 
investigation that is clouded or that doesn't have the 
confidence of not just the Pakistani people but people 
internationally. I think right now there is enough of a 
question about Mr. Musharraf's conviction to this. Never mind 
the fact that there is some question, as I said, the directions 
that have been given to the Scotland Yard.
    I don't think it serves our purposes for our security or 
anybody else's to have this thing not have the confidence of 
the Pakistani people and others, and I believe the way it is 
going forward now, not being an independent U.N. investigation, 
really puts us in jeopardy of having it not be accepted the way 
it should be, the results. So I just hope that you will 
consider that and maybe rethink the position on this or bring 
it back to the administration and say that there are plenty of 
people who think that it ought to be ratcheted up a level here 
and moved on.
    Let me just address some comments that you made on 
judiciary. Given the fact that already the president, President 
Musharraf's election is questioned by many as to his legitimacy 
and having had the testimony of all of the individuals that 
have been before us about the election observations they have 
made, that the judiciary is a critical component of the 
election process in Pakistan and who appoints the judges to the 
various levels that make decisions with respect to challenges 
to any aspect of the election, about the determination of the 
council and other aspects.
    Unless the Musharraf presidency and the administration over 
there is willing to allow the release of people that are in 
prison right now or constrained in the judiciary and appoint 
people that are not perceived to be his puppets in there, how 
are we ever going to get people to accept any elections as 
being legitimate?
    Mr. Boucher. Well, I think, first and foremost, it is the 
conduct of the elections that people will judge. They will know 
how things went. There are plenty of observers. There will be a 
lot of media. There will be international and domestic 
observers.
    As we have noted, the political parties at the moment are 
participating. They have also raised a lot of red flags and 
said problems here, problems there, things that ought to be 
fixed. We are pushing very hard to get many of those things 
fixed before the election.
    The judiciary comes into play afterwards if there are 
serious charges of fraud and abuse. If those aren't settled 
appropriately by the election commission, then the judiciary 
would get involved. But I think, first and foremost, our effort 
is to try to get a good election up front, so you don't have to 
ultimately fall back on judicial mechanisms that are in 
themselves quite controversial.
    Mr. Tierney. But challenges to the voter polls and other 
aspects prior to election and during election are going to be 
brought to those judges, and it is going to be important on 
that. I think that we have to not just look at the fallout 
afterwards. I think we ought to be a little more proactive.
    You say that we are doing things to try to correct them on 
the front end. One of the things we ought to correct is to make 
sure people that are going to make decisions about the number 
of challenges that have been made to the polls, to the polling 
places, to the fact that the code of conduct still exists on 
the media. So I don't know how we can trust the reports that 
are going to be made about the election. They are certainly not 
going to be critical if a reporter stands the prospect of not 
only being fined but going to jail.
    What are the prospects of getting these things addressed 
prior to the election or are we just in a mode we are going to 
ask President Musharraf to do it and when he doesn't do it, we 
are going to deal with the fallout afterwards?
    Mr. Boucher. I think there have been a lot of things 
addressed prior to the election if you read. You referred in 
your opening statement to the reports that the National 
Democratic Institute had done, and if you go back and you read 
the one they did in May and the one they did in October and the 
testimony in December, some of the things that they were 
focused on were consistent throughout, but some of the things 
that they were focused on changed from time to time because 
there were, in fact, changes. There was, in fact, progress.
    I think we have come out of the state of emergency with 
some serious distortions left on the process of the elections. 
There are some things that still need to be corrected. We have 
things in Pakistan that if you look at previous elections that 
were serious problems. I cited transparent ballot boxes just as 
one that is easy to point to but a lot of other things, 
interference by local officials and other such things.
    So I think we are both looking at the problems that existed 
from way back in the past as well as the more recent ones and 
just trying to get as many fixed as we can. The more that get 
fixed, the better the election.
    Mr. Tierney. My time is up. I want to stop.
    You mentioned the National Democratic Institute. Their own 
comment from Senator Daschle, who was there on behalf of that 
committee, was in fact: ``Virtually nothing has been done since 
our first report of May, 2007, to strengthen the prospects for 
free and fair elections.''
    So there has not been of a continuance of improvement, as 
you recommend, at least not in the National Democratic 
Institute's problem, and that is what we are dealing with here. 
There hasn't been that kind of reform or changes in the 
situation that they pointed out. The trouble back in May still 
existed in December.
    So that is, I think, why we are trying to urge some more 
concerted effort on behalf of the administration here.
    Mr. Shays.
    Mr. Shays. Mr. Chairman, I would like to defer to my 
colleague who has been to Pakistan. I haven't been, so I am 
just going to pay attention for a little bit.
    Mr. Tierney. Mr. Issa is not a member of this subcommittee, 
but by unanimous consent we would be more than happy to invite 
him to participate and go out of turn. Unless people want to 
take their prerogative, we will go out of turn and allow you to 
question now. Thank you.
    Mr. Issa. Thank you, Mr. Chairman. Thank you very much.
    You know there is nothing more bipartisan on this committee 
than elections. The IRI, obviously, you are familiar with their 
attempt to do work in Pakistan.
    Let me just bring to your attention again a couple of 
things. You are familiar with the exchange of letters between 
the Ministry of Economic Affairs and Statistics back in 
October, OK?
    Mr. Boucher. I am not sure I am.
    Mr. Issa. Let me put it in perspective. Are you aware the 
IRI has been told to cease and desist and leave the country?
    Have you been told that there has been a cat and mouse game 
played with their visas repeatedly, that both their head and 
their interim head have been denied timely visas every time the 
extension of an election occurs? What a surprise, they have to 
play for another month or two just to try to get that.
    But, in particular, I am going to call your attention and 
ask unanimous consent these two documents be placed in the 
record from the Pakistani Government.
    Mr. Tierney. Without objection, so ordered.
    Mr. Issa. Not only has the Government of Pakistan Ministry 
of Economic Affairs and Statistics basically said we need more 
than an MOU. We need to register the GOP and the IRI because 
the IRI needs to be registered in order to do business on 
elections.
    What is the point of having international observers if they 
have to somehow come up with a bunch of credentials beyond 
those which the U.S. Government and your kind of office bring 
to bear?
    Second and, most importantly, the denying on December 24th, 
just 3 days before the assassination of the lead prime minister 
candidate, Mrs. Bhutto, they answered, clearly stating that 
exit polls would not be allowed. They were not approved and 
would not be allowed.
    Clearly, if we expect and we do expect their to be gaming 
of the system including the now translucent, not transparent, 
ballot boxes, wouldn't you say that exit polls are about the 
only way to get some relative feel for the level of gaming of 
the system, post-election?
    Mr. Boucher. Sir, I have worked very closely with IRI, and 
I have talked to them a number of times, and our people in 
Pakistan, our embassy in Pakistan has worked very closely with 
them as well. So let me make a couple comments.
    I am not familiar with a letter from October about 
registering, and I will have to look into that and see what the 
basis of that was and what happened to it.
    We have worked very closely with them and the Pakistani 
Government on the visa question. They have their visas renewed, 
not as long as we would like, but for the moment everybody is 
satisfied that question is taken care of at least through the 
elections.
    They were very concerned about remarks that the secretary 
of the election commission made--I think it was December 26th--
about polling places and access to polling places and how they 
would be allowed to go to places.
    We worked with them and with the election commission. About 
2 weeks ago, the election commission put out a statement that 
clarified that to the satisfaction of all of us, that in fact 
observers, domestic and foreign, would be allowed to go to all 
polling places and see all aspects of the prospect.
    Mr. Issa. But not do exit polling.
    Mr. Boucher. Now let me get to exit polling. Exit polling, 
as far as I understand, it has not been widely done in Pakistan 
before. We think it would be a very useful adjunct to the 
process, and we have made that point.
    You ask, is that the only way to find out if people are 
gaming the system and where the distortions are, and the answer 
is I don't think so. I think there are other ways, and we have 
been pushing very hard on those.
    Asia Foundation is going to try to run a parallel vote 
count with their domestic observers to collect the numbers at 
the polling station level and add them up themselves. That is a 
very useful check on the system.
    The media will be out far and wide, checking on such 
things.
    We have encouraged very strongly with the election 
commission and the leadership in Pakistan that there be full 
transparency, that the count be done on chalkboards in rooms 
where everybody can watch the numbers being added up.
    There is a variety of things like that we have continued to 
press, one of which I mentioned in my opening remarks, which 
was posting of results at the polling places in a certified 
manner so that everybody would be able to add them up 
themselves.
    So we do think exit polls would be useful, but there are 
also a variety of other observations and ways that the count 
could get checked.
    Mr. Issa. I appreciate that, and my time is about to 
expire.
    I would say that if there is anything that I, personally, 
am disappointed in, in my trips to Pakistan, it is that for the 
amount of aid, the amount of support that we give this 
president and the fact that his election itself was clearly 
flawed at best, that we are not pushing for this check and 
balance of at least having a prime minister whose election is 
considered to be at a higher standard.
    It would seem to be the minimum that we can ask for this 
president. His position is secure. His position is in excess of 
what was originally intended in their own constitution because 
of the nature of how he came to power and now has become 
president again.
    So at least I, for one, am disappointed that 3 days after 
the election, we expect a team to leave even if they are in the 
midst of uncovering huge amounts of discrepancies. Observation 
on election day, as you said, is not the only tool. But if your 
visas expire and you are forced to pack up and be gone 3 days 
after an election, it is very clear that you are not able to 
followup in the aftermath of what is likely to be a less than 
full and fair election.
    Mr. Boucher. Sir, I think you put it very well the need for 
a strong player, a strong prime minister who emerges from a 
credible election. That has to be an important part of 
stability in Pakistan. We push very hard for that in a variety 
of ways, especially in trying to improve this process.
    Right now, we have worked with IRI, we think, to solve the 
problems that they saw with their observation mission. The 
remaining issue, as far as we understand it, is only the 
question of security for their personnel, and we are continuing 
to work with them and talk with them about that. Should they 
decide to go back, then we will work on keeping them there.
    Mr. Tierney. Thank you, Mr. Issa.
    Mr. Lynch, you are recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    First of all, Mr. Ambassador, thanks for your good work and 
your willingness to come before the committee to help us with 
ours.
    In our last visit, we went into some of the tribal areas 
and went into Peshawar, and the indications from some of the 
parties was that they would indeed be participating in these 
elections. But they felt confident, and this testimony was 
repeated to the chairman and I and others in other meetings 
with some of the candidates, they felt that it wasn't a 
question of whether there would be election rigging by the 
administration but how much election rigging would actually go 
on.
    So, while there is participation there, there are some 
restrictions, as you have noted, regarding the media. One of 
the restrictions that we were told of was that candidates for 
the parliament were not allowed to criticize Musharraf or the 
administration. Originally, he had control of all the media, 
all the major media outlets.
    There are also some charges that Musharraf's people had 
begun the criminal reporting of certain opposition party 
members which put their eligibility to participate in the 
elective process, the campaigning, in question and also whether 
they would be allowed to actually vote.
    During our visit, the DCM, Peter Bodde, was nice enough to 
invite us back to participate as election monitors. But I guess 
with all those factors in there and some that you have 
addressed and I have not, is it a worthwhile exercise, as Mr. 
Issa says? What is the effectiveness?
    What would be the effectiveness of us, as Members, going 
back into Pakistan during the election and are we at that point 
where we need to use the only leverage we have apparently with 
Musharraf, which is economic aid by the United States to 
Pakistan?
    Mr. Boucher. I think you raise a number of very important 
questions there.
    First of all, I don't think. We don't necessarily accept a 
certain level of fraud, but if history is any guide and the 
current reports are any guide, we should expect some.
    There is an interesting group called the Fair and Free 
Elections Network--I think it is FAFEN.org--in Pakistan. It is 
the domestic observer network, and they have regular reports of 
what is going on in the provinces and districts.
    If you see their reports, for example, they report 
interference by local government officials in all kinds of 
places on behalf of all the different parties, slightly 
somewhat higher, sort of about a one-third of the districts 
that reported some interference for most of the parties and 
something on a half or two-thirds where the government party is 
in charge. So it is an indication, perhaps, of what one might 
expect throughout Pakistan, a certain level of interference.
    On the other hand, I think it is harder to get away with it 
now. Even on the restrictions on the press, there is an 
enormous explosion of media in the last 8 years under President 
Musharraf actually. They have gone from something like 4 TV 
stations to almost 50. Even with the restrictions that exist, 
which we think should be lifted, there is going to be a lot of 
reporting.
    There is going to be an enormous number of observers 
around. The political parties are well organized and, believe 
me, they will cry foul if there are any fouls that exist.
    At the same time, I don't think we should give up on this 
election. I think if everybody works to make it a good 
election, we can have a credible election in Pakistan. If 
everybody, political parties, election commission, election 
observers, foreigners, domestic, civil society people, 
everybody has to work to make this a good election so that the 
new leaders who emerge for Pakistan have that endorsement, have 
that legitimacy of coming out of a legitimate election process.
    The election observers are important not just to point out 
problems where they exist or to find fraud where it happens. 
They are important, I think, to keep the process honest. Just 
the fact that election observers there and are moving around 
and looking at polling places, I think tends to put a damper on 
the excesses that might otherwise occur.
    Mr. Lynch. I guess the last question part of my question 
again was the only leverage we have is really the economic aid 
that we provide to Pakistan. A couple of problem areas. The 
election is upcoming and also the willingness of Musharraf to 
take decisive action in south Waziristan by Baitullah Mehsud 
and also just the whole Federally Administered Tribal Areas 
where Al Qaeda and the Taliban are resurgent.
    Are we delivering a clear message that Congress is very 
reluctant to commit further resources unless we see a 
demonstrative change in behavior rather than some of the 
passive, it is almost complicity that we have seen in the past?
    Mr. Boucher. I think it is a question that is easier in 
theory than in practice. I don't think it is worth our while to 
withdraw money from girls' education, all the money that we put 
into education and health in Pakistan. I don't think it is in 
our interest to withdraw money from the counterterrorism 
efforts in Pakistan.
    I think we are very careful about our assistance. We have 
taken steps recently to focus it much more on helping the 
people of Pakistan and helping the authorities go after the 
extremists.
    There is a lot of fighting going on, and they have lost, 
they have lost a thousand people to terrorism in the last year. 
They have lost 250 members of the security forces since July. 
So they are engaged in a fight, and I think it behooves us to 
help them pursue that with the best possible tools.
    Mr. Tierney. Thank you, Mr. Lynch.
    Mr. Lynch. Mr. Chairman, I just want to say, just in 
response, what we are hearing in our committee is that much of 
the resources that we have given Pakistan in the past have not 
gone to education. It has gone really toward the Pakistani 
profile vis-a-vis India and the Kashmir and the military 
programs and not for education. So we are concerned about that.
    Mr. Boucher. I think if you look at the numbers, you will 
see it is somewhat of a different answer.
    Mr. Tierney. Let me interject. It is a point well taken on 
both response and the question.
    We are going to get into that issue in hearings coming up 
in the not too distant future on that for two purposes: one, to 
find out exactly what has been going on and how effective that 
has been but also as we look forward to some of the changes the 
administration has recommended and some that Congress has put 
into law. If we are going to be delivering aid, we have to be 
concerned about how it is made, whether we are accountable for 
the money, where it goes and whether or not it is going to be 
effective, given the security situation there now as well.
    Mr. Boucher. Absolutely, sir.
    Mr. Tierney. So, point well taken, Mr. Lynch, and we 
appreciate that.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    Ambassador, there seems to be a threshold question and a 
conflict. On the one hand, it is very clear that stability in 
Pakistan is vital to American interest in the region. No. 2, 
Ambassador Negraponte has said that Mr. Musharraf is 
indispensable. He is the indispensable man.
    There is a view, widely shared in the State Department and 
the Congress, that free and fair elections are probably the 
most effective way to assure stability in Pakistan. But 
President Musharraf, by his actions--suspending the 
constitution and press restrictions and essentially firing the 
judiciary--has fundamentally compromised the integrity of any 
electoral process that follows.
    No. 1, do you see Mr. Musharraf as the indispensable man as 
was indicated by Mr. Negraponte?
    Mr. Boucher. I do, sir. I think he has led the Nation the 
way it has gone, but let's also remember now he is taking on a 
different role. He is taking a role of president which he has 
before but no longer as the guy in charge.
    Mr. Welch. You do see him as indispensable.
    Mr. Boucher. He is going to be one player, a man along with 
a newly elected prime minister and a number of other government 
institutions.
    Mr. Welch. Let me just followup on this. I can understand 
that there is a real dilemma for policymakers in our position. 
I totally appreciate that, but the firing of the judiciary 
would more or less be the equivalent to the President of the 
United States in November 2000, when the Bush v. Gore-Gore v. 
Bush case was before the U.S. Supreme Court, getting an 
apprehension that it wasn't going to go the way the President 
wanted it and firing the supreme court.
    The threshold question that the American citizens would ask 
is whether that had any legitimacy and whether, until the 
restoration of the judicial branch, could you have any 
integrity in future elections that would be subject to the 
supervision ultimately of that independent judiciary.
    The question I have is this. Why is it not the position of 
the U.S. Government that as a condition for aid or, more 
important, as a condition of confidence, that the electoral 
process in fact will be free and fair, we have to require or 
demand that President Musharraf restore the independent 
judiciary?
    Mr. Boucher. I think, sir. First of all, I don't think the 
analogy stands up to expert scrutiny, and people I have talked 
to about Pakistan, who have studied this a lot more than I do, 
have said it is not. You can't compare it to the United States. 
We have different history and tradition.
    Mr. Welch. Don't compare it to the United States. Do you 
believe?
    Let me just ask this. We will leave out the comparison. Do 
you believe that it was appropriate for President Musharraf to 
fire the supreme court?
    Mr. Boucher. No.
    Mr. Welch. Do you believe that it should be our policy in 
order to achieve the goal of free and fair elections, that we 
demand that the president restore the supreme court justices to 
their positions?
    Mr. Boucher. We believe that it is very important for 
Pakistan to have an independent and responsible judiciary.
    Mr. Welch. Can it be accomplished without this?
    Mr. Boucher. But that in itself is a very political issue 
in Pakistan. There is a lot of controversy about it. We 
certainly want them to deal with it.
    Mr. Welch. No. I am asking our own position.
    No. I am asking the State Department position. Is it the 
State Department position that the judges who have been fired 
should be restored?
    Mr. Boucher. Our view is that the issue of an independent 
judiciary in Pakistan can't be solved that simply.
    Mr. Welch. So that the president is allowed to fire the 
independent judges on the supreme court.
    Mr. Boucher. Our view is that it was not a good move but 
that to fix it, it needs to be done with the full political 
process, with a newly elected prime minister and other leaders, 
and they have to try to get together and figure it out.
    Mr. Welch. My understanding is that if we have a new 
election, President Musharraf retains the power to dissolve the 
Parliament. Is that right or wrong?
    Mr. Boucher. That has been the case for a long time, yes.
    Mr. Welch. Right. So then, in fact, if he can retain the 
power to dissolve the parliament, if the parliament takes an 
action to restore the judiciary, then President Musharraf has 
current power to dissolve the parliament and negate that 
action. Is that right?
    Mr. Boucher. In theory, yes. I mean, as you all know, there 
is sort of constitutional law and there is politics.
    Mr. Welch. See, here is the dilemma from, I think, the 
American perspective, and I don't mean to be difficult on these 
because you are facing an extraordinarily difficult situation. 
We are stuck with the devil we know.
    But there is an inherent conflict that I think we might we 
want to directly acknowledge, and that is on the one hand, we 
believe in free and fair elections; on the other hand, the 
person who is going to implement those has already sabotaged 
any possibility that the people who are going to vote can be 
confident that it is a free and fair election or, if it is, he 
won't be able to overturn the action of their vote by 
dissolving the parliament they elected. You just acknowledged 
that can happen.
    Mr. Boucher. And that may or may not happen.
    Mr. Welch. Well, it may not happen, but what we have is a 
situation where the people in Pakistan, who want to vote, are 
no dopes and they understand that ultimately what they vote is 
totally secondary to what President Musharraf decides.
    Mr. Boucher. If you look at the history of Pakistan, you 
have had prime ministers kicked out by presidents and by the 
army. Some of that is in the constitution. Some of it is not.
    The fact is we are going to have a new political situation 
after the election. The parties are participating, and we hope 
they can get a fair representation.
    Mr. Welch. Just one final question, do you think there 
might be some benefit to how the people of Pakistan perceive 
the U.S.'s commitment to their right to free and fair elections 
if we stated explicitly and directly to President Musharraf 
that we believe in order to achieve those free and fair 
elections, he should restore the judiciary to its independent 
status?
    Mr. Boucher. I think some would think that was great and 
some would not.
    Mr. Welch. OK.
    Mr. Boucher. The fact is it is a very political environment 
in Pakistan. The judiciary has been a matter of political 
controversy. They need to deal with it.
    They need to have an independent judiciary, but I can't see 
them doing it until after the election with all the players, 
including the new players. If there is a good election, the new 
players will be credibly elected and have a lot of say in the 
matter.
    Mr. Welch. I hope you are right.
    Mr. Tierney. Thank you, Mr. Welch.
    I will just make a note that I am stunned when you keep 
saying that they are good elections. If the judiciary situation 
isn't going to be resolved, then they aren't going to be good 
elections in a sense. They are going to be tainted elections. 
The question is the degree of taint on that.
    But all the testimony we have had in this committee from 
all of the people who are experts in here that have been over 
there, that have assessed the election process, all remind us 
of the important role the judiciary plays in the election.
    The election commission, which is still not a full 
complement of people on that commission and 1,300 complaints 
continue to be resolved to that election commission even before 
they have the balloting.
    So I am just surprised to hear about good elections. I 
think it is a term we might not want to get caught up. They 
won't be good elections. They will be elections. The question 
will be how much taint is going to be involved in those 
elections.
    Mr. Boucher. On a scale from terrible to great, it will be 
somewhere in the middle.
    Mr. Tierney. Mr. Yarmuth, you are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Ambassador, welcome, and I want to continue this discussion 
because it is a line of discussion that we pursued with Senator 
Daschle and Mr. Garrett and Mr. Schneider in December.
    The question is we all talked about the confidence that the 
Pakistani people have in the results of the election. We all 
understand that there are two elements to that: the procedural 
aspects, which may or may not be the most important aspects, 
and then the overall question of whether you can have a 
legitimate election in the environment that exists there. That 
was prior to the assassination.
    One of the things that I asked of them, of the gentlemen 
who were here before, was, what measures are going to be used 
to determine in your estimation as to whether the election is 
legitimate or not, procedural ones being one aspect of it as I 
said?
    The issue being if we are in a situation in which the only 
measure of whether there is a legitimate election is whether 
Musharraf is rejected overwhelmingly, then are we not in a 
position, a very difficult position of having been perceived as 
lending our imprimatur to an election that is flawed and what 
the ramifications are for our ongoing efforts in Pakistan and 
that part of the world?
    Mr. Boucher. I don't think the standard for judging the 
election can be who wins and who loses.
    There are going to be a lot of voices commenting on the 
election, describing what they saw. We are going to have 
embassy observers, European observers, we hope American 
observers, this huge domestic network that is going to be 
there. We will listen to the observers.
    We will listen to the media and what do they report, what 
do they see.
    We will listen to the political parties. Frankly, the 
political parties have decided that whatever the distortions, 
whatever the possibilities of fraud, whatever the faults and 
flaws of the election commission, that they are going to 
participate and they are going to go for it.
    We are trying to continue to work right up to the last 
moment and even afterwards to try to give them every 
opportunity to get a fair result, a result that truly reflects 
what the people wanted.
    I think by listening to all these voices from people on the 
ground, in Pakistan on the ground, we will know. We will all 
know how good an election it was and how distorted it was. 
Obviously, we have to make judgments at that point.
    We have made very, very clear to everyone in Pakistan that 
we think having a good election is essential to moving forward 
with Pakistan. It is an essential part of our relationship, and 
it is not in any way contradictory with our overall goals of a 
stable society, fighting terrorism. It is part and parcel of 
that.
    Mr. Yarmuth. I agree with that. But, like I said, when we 
had our hearing back in December and I raised this question, I 
think there was general agreement that it was possible that 
could be the perceptual problem following the election, that 
the only way it will be perceived, not because of procedural 
matters. The only way it will be perceived as legitimate is if 
Musharraf is rejected.
    Therefore, if that becomes the measure, what can we do or 
have you thought about what we can do to essentially refute the 
idea that we were complicit in basically a flawed election 
process?
    Mr. Boucher. I guess you know some circles will base their 
view of the process on the outcome. Did we or did we not get 
what we deserve, and people always have a higher expectation of 
what they deserve and what they end up with, but I think 
generally people have a sense from polling going back over the 
last year and the changes in attitudes. People have a sense of 
where it might end up.
    But I think it is more the reports from the people on the 
ground on the conduct of the elections, on how open the 
environment was in the end, how much exposure they were able to 
get through television or through rallies. It is important to 
listen to the details and not just look at the totals.
    Yes, some people will complain, and some will complain more 
loudly than others, but you know one of the key questions will 
be do the political parties accept the outcome to the point 
where they think it is basis to form a government and to move 
forward.
    Mr. Yarmuth. I come from a media background. I would ask 
you, are you confident that the media is sufficiently free to 
provide the type of open discussion of the election as it is 
being conducted, so there is confidence on the part of the 
voters that they are getting an accurate report?
    Mr. Boucher. There are still some restriction on the media 
which we think should be lifted and can be lifted between now 
and the elections, but I have to say there is an awful lot of 
discussion out there and there is an awful lot of reporting out 
there. So there will be a lot there but not as much as perhaps 
there should be.
    Mr. Tierney. Thank you, Mr. Yarmuth.
    Mr. Platts, you are recognized for 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate your testimony and the 
importance of this topic. I do want to focus a little bit not 
just specific on the election but on the militants in Pakistan 
and our efforts to both help the Pakistan Government in going 
after their militants who are trying to derail democratic 
efforts in Pakistan and also how that impacts us in Afghanistan 
significantly.
    It was reported in the New York Times on Sunday about DNI 
McConnell's and CIA Director Hayden's reported recent visit 
regarding us having a greater latitude with our CIA operatives 
in the tribal areas and that supposedly President Musharraf's 
response was a rejection of this idea and that they will 
continue on their own to combat this challenge.
    One, is this seen by the department and by the 
administration as a significant change in President Musharraf's 
efforts in working with us in this regard and, if so, what is 
going to be our efforts or our response to that change in 
position?
    Mr. Boucher. Congressman, there is a limit to how much we 
can discuss these issues in this session and a limit to how 
much I can discuss the business of other departments and 
agencies.
    I think there is only really one point I can make, and that 
is Pakistan has been and continues to be a partner in the war 
on terrorism. Many of their soldiers and officials have lost 
their lives in the fight against the Taliban and Al Qaeda.
    They have been able to capture hundreds of very dangerous 
people, and they have been a partner with us. They have worked 
on it. We have worked with them.
    It is a sovereign country. We work with them within their 
own country as they wish and as they decide, and so we have, I 
think, a positive relationship. We are always. We are all 
looking for how we can advance this relationship and advance 
the cause that we believe in, that we both believe in and that 
is the fight against terrorism.
    Mr. Tierney. Mr. Platts, if I might just say, we are going 
to allow you that extra time. I don't want to take it out of 
your time.
    You weren't here at the beginning to note that Ambassador 
Boucher is going to be testifying at 1 p.m., in front of the 
Intelligence Committee to cover those areas that can't be 
covered here, including some questions about a different view 
of what the Ambassador says in terms of some of the Pakistani 
troops laying down their arms and being taken, imprisoned or 
otherwise set aside on that. But to the extent that the 
Ambassador can't get into that detail here, it will be covered 
in the other hearing, and I think you will have access to the 
minutes.
    Mr. Platts. OK.
    Mr. Tierney. Thank you.
    Mr. Platts. Thank you, Mr. Chairman.
    I do respect the sensitivity and what you can say in this 
open setting, but clearly what goes on with the CIA and with 
the DNI impacts your department's ability to then work on these 
issues of our relations with Pakistan and specifically the 
election.
    I don't want to diminish Pakistan's efforts in partnering 
with us. I was in Pakistan in September, in fact, on the 
anniversary of September 11th and appreciate the sacrifices 
that their troops and personnel have made in trying to assist 
us and combat these radical militants.
    But in the FATA region, the North-West Province area, my 
understanding is the administration has talked about additional 
hundreds of millions of dollars of aid for those specific 
regions.
    I guess maybe from the Department of State's perspective, 
how do we, to our taxpayers, say we are going to commit these 
hundreds of millions to an area that we don't have confidence 
or aren't under any reasonable control by the Pakistani 
Government, yet we are going to put more of our money into that 
region?
    Mr. Boucher. It is a difficult area to work in not only 
because of the insecurity but because of these unusual 
governing arrangements that go back to colonial times.
    The plan for sustainable development in the tribal areas 
was developed very closely by the Pakistanis with us, and it is 
a solid program, we think. One strong element of that program 
is in the early stages now is to start building the 
administrative apparatus to reach out to the people, to conduct 
projects, to build bridges and schools and conduct health 
programs in a verifiable and auditable way so that they have a 
set of institutions that can carry out projects in those areas 
and get things done.
    We do have some experience up there. Our Narcotics Affairs 
Section is building roads, doing training up there for a number 
of years. The Agency for International Development has built, I 
think, about half the 65 schools that they have planned to 
build in those areas. We have child and maternal health 
programs in the tribal areas already.
    So we have some experience working with NGO's, working with 
contractors, working with people who can get things done in 
those areas.
    Now, obviously, it is easier to do things where the 
situation is calmer. So, at any given moment, we may be working 
here and not there, and that will probably continue.
    But, yes, we do have plans. We are going to put about $750 
million into this area over 5 years, and the central goal is to 
give these people a chance at economic opportunity, a chance at 
jobs and a chance to be part of the national economy.
    We will be coming to Congress also with legislation on 
reconstruction opportunities to open up opportunities there as 
well.
    Mr. Platts. Mr. Chair, if I can just have a quick followup.
    Mr. Secretary, in my numerous visits to Afghanistan where 
we have had some important successes in aid investment and 
development--whether it be roads, schools, hospitals--a key in 
being out with PRTs and Jalalabad, it was kind of a role model 
when I was there a few years back for how to do this. A very 
important part of this effort was partnering our military with 
our USAID officials and the civilian-military partnership that 
provided the security along with the investment of the 
development effort.
    How are we going to ensure that same ability in this area 
where Musharraf is very publicly resisting us having a greater 
presence?
    Mr. Boucher. The basic development plan is a Pakistani 
development plan. It is about a $2 billion plan. We are putting 
in $750 million over 5 years. They will be about $100 million a 
year for a slightly longer period.
    We are also working with their military on two things. One 
is to transform the Frontier Corps, the local security forces, 
into a more capable force and, second of all, to help with some 
of their units who need to do the job right now of fighting the 
militancy, and working with them in these parallel tracks and 
talking to them, working with them about how they can make 
these two tracks work in tandem, both of fighting the militants 
but also offering opportunity to the people who live there.
    Mr. Platts. Thank you, Mr. Secretary.
    Mr. Tierney. Thank you, Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Tierney. You are welcome.
    Ms. McCollum, you are recognized for 5 minutes.
    Ms. McCollum. Thank you, Mr. Chair.
    When elections take place on a weak foundation, they can 
actually create divisions that democracy is supposed to be able 
to heal. I had the opportunity, thanks to Mr. Tierney, to be in 
Pakistan and met with many of the people, NGO groups networking 
on the election issue.
    I was pleased to hear in your testimony that they have now 
published the rolls. When we had lunch and spoke with people at 
length, the media hadn't been brought into how they were going 
about setting up the rolls for the elections. There was no 
transparency. There was no public looking in to see as to how 
these elections were being prepared which was a huge mistake in 
my opinion, and I think we all share that and express that.
    So it was nice to hear that there has been a little bit of 
action taken, but I am still very concerned about the upcoming 
elections in Pakistan. The potential for violence and 
instability, I mean we saw that recently with the assassination 
in Pakistan.
    We are witnessing now with what is taking place in Kenya, a 
month since the Kenyan elections, and I don't think anybody in 
their wildest expectations thought what was taking place in 
Kenya would, the riots, the killing, the mass, mass killings. 
In fact, in the city of Nairobi, a moderate opposition leader 
was gunned down, assassinated. The New York Times said, 
``Kenyans are literally ripping their country apart, uprooting 
miles of railroad track, chopping down telephone poles, burning 
government offices and looting schools.''
    The potential for a flawed election to destabilize Pakistan 
is a real one. Considering last year's challenges back and 
forth with who was even going to be allowed to stand for 
election and the assassination which I had mentioned already, I 
am very concerned about a breakdown and the effect it would 
have on regional stability.
    So my question is, what steps should the United States and 
the international community be taking to prepare in case 
widespread violence and destabilization would follow an 
election in Pakistan? What steps have been taken?
    What discussions are taking place because the potential of 
spilling over into affecting NATO forces, into Afghanistan is 
real?
    As we have respected and I believe we should respect the 
sovereignty of Pakistan and what operations are conducted 
within its borders, if this comes apart, what happens next?
    Is there a Plan B and are we working with the international 
community, so it is well understood what the international 
community's reaction would be?
    Mr. Boucher. Ma'am, I appreciate the question. I think I 
have to say, honestly, our first plan is Plan A is to try to 
make this process as good as possible.
    We do know the history of elections in Pakistan and where 
there has been fraudulent elections, widespread abuses, there 
has been violence afterwards. That is one more reason why it is 
important to have as good an election as possible, and 
everybody should work on that, and that is what we are doing 
and trying to get others to do.
    The army is going to deploy to try to provide security at 
polling places and keep down what you might call the level of 
violence, the fact that the elections themselves are targeted 
by the violent extremists. Just as Benazir Bhutto was, other 
political leaders and government officials in Pakistan are 
still being targeted.
    The militants are anti-election as well as anti-
establishment and anti-politics and against the political 
leaders. So there is a heavy threat that comes from that, from 
that side of Pakistan, from the militancy and the violent 
militancy that comes out of the tribal areas.
    Exactly what we would do in the case of widespread violence 
after the election really depends on what it was and where it 
came from. If it were ignited by the militants, there is a 
chance that we could work and see the society band together, 
but if it were the result of electoral fraud, that obviously 
creates a much more complicated situation.
    So I don't think I am really able to give you a clear 
answer right now as exactly what we would do, but I think what 
you point out is a very real possibility and we all need to 
push very hard to try to avoid coming to that point.
    Ms. McCollum. Mr. Chair, I have just a second left.
    On an earlier question, you were asked about the Scotland 
Yard investigation. Mr. Tierney asked you about that.
    You, if I heard you correctly and I want to give you an 
opportunity to make sure I understood what you said correctly. 
If I heard you correctly, you said that there was no need for 
the United Nations or any other such organization to be 
involved in that. You thought that the Pakistanis and this very 
limited Scotland Yard hearing would hold it.
    That wasn't the U.S.'s position with the assassination in 
Lebanon. How is this so radically different that we would have 
such a silent voice on having a robust investigation?
    Mr. Boucher. I think we have been very clear on the need 
for a robust and thorough investigation. The question is who 
should conduct it.
    I don't think the conditions that led us to conclude that 
there was an absolute necessity of a U.N. investigation in the 
Lebanon case necessarily apply in Pakistan.
    We will certainly be watching this investigation very, very 
closely. We think the addition of Scotland Yard, whatever their 
mandate, does help provide more insight and credibility into 
the conduct of the investigation, and we will all be watching 
very carefully to see how thoroughly it is done and what the 
results are.
    Mr. Tierney. Thank you, Ms. McCollum.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Shays. Thank you.
    Again, Ambassador, thank you for being here.
    I wrestle with this, and I realize there are limits to what 
you can say publicly, but what I wrestle with is that 
Musharraf, however well intended, overthrew a duly elected 
government that was secular, not sectarian, and that in order 
to retain power, my read is that he has had to play over the 
past few years to the sectarian interests and that now has put 
him in the mess that he is in.
    I can't get beyond the fact that he basically dissolved the 
judiciary and put them aside, and it seems that almost 
everything that follows from that point becomes a farce. I 
wrestle with the fact that we have elections, and I say, well, 
you have democratic elections, but you have a government that 
overthrew a branch that is supposed to guarantee that the 
constitution is followed in a democratic way.
    Walk me through what I have just described and tell me 
where my fears are misplaced.
    Mr. Boucher. I think your fears are correct, but we won't 
know until the process unfolds whether they actually come to 
pass.
    First of all, I think you have to look back at the history 
of Pakistan and say, you know I am not the world's expert on 
this, but in my brief readings I think just about every leader 
has had a confrontation and sometimes a very difficult one with 
the judiciary.
    You referred to Nawaz Sharif and the man that was 
overthrown by Musharraf. At one point, his party, people went 
and ran the supreme court out of town or at least out of their 
building. So it is the confrontation between the executive and 
judiciary in Pakistan goes back a long way. It has been a very 
political issue throughout the history.
    That doesn't deny the fact that there absolutely needs to 
be an independent judiciary in Pakistan. The question is how do 
you get one. At this point, having a legitimately elected prime 
minister and political leaders who can come out of this 
election and be part of that process of deciding how to 
restructure the judiciary is very important, and that is where.
    Yes, the process is distorted by all sorts of things.
    Mr. Shays. Let me ask this question.
    Mr. Boucher. By restrictions on the media, the lack of 
independent judiciary, all that stuff.
    Mr. Shays. In our judgment, our government's judgment, did 
the judiciary overstep its bounds? Did it do something that was 
contrary to their powers?
    Mr. Boucher. I don't think that is a judgment to us to 
make. But, no, we thought that kicking out the judiciary was a 
bad move, was a real mistake.
    Mr. Shays. Well, I will just conclude by saying that my 
questions were also going to focus on the violence that is to 
come, and what happened in Kenya strikes me very likely to 
happen in Pakistan. I don't know how we respond to it, but I 
think it is going to be very likely to happen.
    Mr. Boucher. Well, we will know in a few weeks whether we 
have violence, whether we have, how good an election we have.
    Mr. Shays. Right, and that is true. Do we have a 
contingency plan to respond to violence if it takes place?
    Mr. Boucher. I said we have to deal with how it comes from.
    Mr. Shays. I don't need to know what it is. I don't need to 
know what it is, but do we have plans if that happens?
    Mr. Boucher. We have looked at various scenarios, but until 
you find, you know until you see the actual situation, it is 
very hard to decide precisely how to deal with it.
    Mr. Shays. Well, thank you again for being here.
    Mr. Chairman, thank you for holding these hearings in such 
a timely way.
    Mr. Tierney. Thank you, Mr. Shays.
    Mr. Boucher, I just want to followup on that particular 
thing because we have made that an emphasis of the hearing on 
this.
    Mark Schneider, who was here on behalf of the International 
Crisis Group, spends a lot of time over there. His testimony 
was this: Musharraf, by permanently barring the previous 
supreme court and the provincial high court judges who refused 
to bow to his edict, has assured that the commission will be 
compromised of his handpicked choices.
    District returning officers and assistant returning 
officers, who supervise the actual polling process in each 
province, are either district court judges themselves or 
appointed by district court judges, all under the guidance of 
the provincial high courts, whose new members are suspect.
    Remember that Musharraf has sacked 13 of the 17 supreme 
court judges and more than 40 high court judges, and any 
electoral complaint of fraud, rigging or electoral violation 
ultimately would be heard on appeal to those courts. Stacking 
the full range of high courts nationally and provincially, 
including naming a totally new high court in Islamabad, amounts 
to hijacking the electoral process itself.
    That is our concern, I think, in a nutshell, that the very 
people that are supposed to set up the process before 
balloting, assure that the voting polls are there, assure that 
the balloting process is legitimate, assure that complaints 
about that are determined in a fair way are people that have 
been put in place by President Musharraf whose own election is 
suspect, whose dismissal of the original court was suspect and 
now whose appointees are suspect.
    The people we have heard from and all the parties, they may 
be participating in this election, but all of them feel 
strongly that is the crux of the matter and that, in essence, 
again they can't get a fair election. They can just get the 
best that they can get.
    The question is how tainted is it going to be. If it is too 
tainted, all hell is going to break loose.
    So I just leave that to tell you the ground work of some of 
the testimony that raises that question and why we think it is 
important.
    Mr. Boucher. Can I make one quick comment on that?
    Mr. Tierney. Certainly.
    Mr. Boucher. I don't disagree that is a serious concern, 
but I do think that there are a number of ways to deal with it.
    No matter how beholden or dishonest any individual 
returning officer is along the chain, if he has to do his 
counting and his business in full transparency with media 
watching and the parties watching and the observers watching, 
it is a lot harder for him to add in a few thousand votes here 
and a few thousand votes there. We have pushed very, very hard 
on the transparency issue for that reason.
    Mr. Tierney. Except, Ambassador, there are 64,000 polling 
places. There will not be observers at every one. There will 
not be media at every one.
    Mr. Boucher. There will be.
    Mr. Tierney. There will be plenty of opportunity, as 
historically has happened in the past, for mischief to occur, 
and that is the problem. It is such a vast area.
    Now we would like that to be cleared up before the 
election. We would like the media code of conduct to be changed 
before the election. We would like the people that are in 
prison to be out before the election changes.
    But when we have Mr. Negraponte, Ambassador Negraponte 
making statements that President Musharraf is indispensable to 
the United States, what leverage do we have?
    What motivates him to changing his conduct if we already 
told him you are indispensable, we put all our chips with you, 
we don't care how the election comes out, you are going to be 
there, we are going to deal with you?
    What leverage do we have with him to change any of these 
things?
    Mr. Boucher. He has put himself in a new position, and we 
are going to have to deal with him in that new position. He has 
committed himself to a democratic transition, to a transparent 
election, and I think the leverage is his own commitments.
    The leverage is that he has made those statements. He has 
made them in public repeatedly to us and to others, and we 
expect him to live up to those commitments.
    Mr. Tierney. Well, according to the latest poll over there, 
a really comprehensive public poll, 67 percent of Pakistanis 
want him to resign immediately and 70 percent say his 
government doesn't deserve reelection. So he is treading on 
some incredibly thin ice.
    I just hope that we concentrate on not necessarily bucking 
up Mr. Musharraf but bucking up the people's choice over there 
and working with them on that and somehow find leverage, 
despite the fact that the administration has turned him into 
indispensable. Find some leverage maybe in view of the fact 
that General Kayani has set some distance to him now, saying 
that the army will stay out of the elections, maybe since the 
retired army officers have made a statement against Musharraf 
or whatever. Maybe we can capitalize on that for some leverage 
to get him to do what we think needs to be done before the 
elections.
    Mr. Boucher. We will work with all the institutions in 
Pakistan, the civil society, the presidency, the army, the 
politicians, the elected prime minister. It is very important 
for us that there be a balanced and stable leadership and group 
in Pakistan.
    But I think, fundamentally, our view is let the people vote 
and let the votes be counted fairly.
    Mr. Tierney. Well, I don't want to go around in a circle on 
that.
    What are we doing? What is the United States doing to press 
for the release, the immediate release of those, the political 
opposition leaders, the judges and the bar association members 
who are in prison, Aitzaz Ahsan, the president of the Supreme 
Court Bar amongst them?
    Are we just passively asking nicely and then letting 
whatever the answer is go or are we aggressively insisting that 
these people ought to be released?
    Mr. Boucher. No. We have pursued this at all levels. We 
have raised it repeatedly. We have made public statements, like 
my statements today, that these people should be released from 
detention.
    Mr. Tierney. It was reported that the Government of 
Pakistan expelled an American journalist, Nick Schmidle, 
because of an article that he wrote in the New York Times 
Magazine about the next generation of Taliban, local Taliban in 
Pakistan and the electoral prospects for the religious 
political parties. Are we doing anything with regard to that 
expulsion? Have we taken a position?
    Mr. Boucher. We have raised it with the Pakistani 
Government and don't think it was justified.
    Mr. Tierney. Mr. Welch, do you have any further questions?
    Mr. Welch. No, thank you.
    Mr. Tierney. Mr. Platts, do you have any other questions?
    Mr. Platts. Thank you, Mr. Chairman.
    Just an observation, we seem really to have a dilemma, that 
we need Musharraf more than he needs us and we are willing to 
and want to hope that he supports free and fair elections, but 
we will continue to support him if he doesn't. It seems to boil 
down to that.
    In the world of terrorist threat, maybe that is the 
decision that the U.S. Government has to make, but I wonder 
whether we should be more explicit about the real balance of 
interest is here so that there is not a cynical reaction on the 
part of Pakistanis.
    Mr. Boucher. I have to say I think you know we have a 
fundamental interest in the Pakistani people and their success. 
We have a strong interest in fighting terrorism. But we also 
see a successful transition to democracy as part of that 
process, as part of the stability and the platform, if you 
wish, to fight terrorism.
    Our interests are not dominated by any one segment of 
society or any one leader. We look forward to working with all 
segments of society and all the leaders that emerge, 
particularly those who emerge from the election.
    Mr. Tierney. Ambassador, I can't leave without asking you 
one question. I don't mean to be a wise guy on this, but I am 
trying to assess our degree of importance that we put on this 
issue, and I think it is high.
    I think your earlier statement of this, of General 
Musharraf's actions in dismissing the court and declaring 
emergency and changing the constitution were regarded at one 
time as a bump in the road. Is it fair to say that was an 
unfortunate expression, that we put a much higher degree?
    Mr. Boucher. I said a lot of things that day. That was, 
unfortunately, one phrase that I used and I immediately 
regretted it. It was a very serious problem, and we are trying 
our best to overcome some things.
    Mr. Tierney. That is terrific to hear, and I am glad you 
say that.
    Yes, sir.
    Mr. Shays. We have made a few of those.
    Mr. Tierney. We have, which that is why I want to give the 
Ambassador a chance to do a do-over, as they say on the 
playground, on that.
    Ambassador, the last question I have is on December 21st, I 
sent a letter to the President, outlining a number of issues 
and concerns that have been raised here today. Do you have any 
understanding of where that letter response is in process and 
when we might expect a reply?
    Mr. Boucher. I am sure there are people working on it right 
now, and you will get your reply. As soon as I can find out who 
they are and what they have done with it, we will get it to you 
quickly, sir.
    Mr. Tierney. Fine then.
    Ambassador, let me close just by thanking you for making 
yourself available today. We give you a little bit of time to 
maybe take a breath before you go before the Intelligence 
Committee where I will see you and Mr. Issa, I believe, will 
also be there. Again, thank you.
    Mr. Boucher. Thank you, sir.
    Mr. Tierney. The meeting is adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
